D
I                                                 OFFICE OF THE CHIEF 

S
C                                                 INFORMATION OFFICER 

U
S
S
I
O
N   Office of Inspector General—Office of Audit
D
R
A
F
T




                                                  INEFFECTIVE ACCOUNTING FOR SENSITIVE
                                                  INFORMATION TECHNOLOGY HARDWARE AND
                                                  SOFTWARE ASSETS PLACES DOL AT
                                                  SIGNIFICANT RISK




                                                                       Date Issued:     March 31, 2011
                                                                    Report Number:    23-11-001-07-001
                                                          MARCH 2011 


U.S. DEPARTMENT OF LABOR                                  INEFFECTIVE ACCOUNTING FOR SENSITIVE
OFFICE OF INSPECTOR GENERAL                               INFORMATION TECHNOLOGY HARDWARE AND
OFFICE OF AUDIT                                           SOFTWARE ASSETS PLACES DOL AT
                                                          SIGNIFICANT RISK.

BRIEFLY…                                                  WHAT OIG FOUND
                                                          The OIG found DOL cannot account for its sensitive IT
                                                          assets. From our sample, we could not physically locate
Highlights of Report Number: 23-11-001-07-001
                                                          approximately 50 percent of assets recorded in the
Ineffective Accounting for Sensitive Information
                                                          E-Property Management System (EPMS), and could
Technology Hardware and Software Assets Places
                                                          not find, and were not provided any records for,
DOL at Significant Risk.
                                                          approximately 14 percent of IT assets we located on the
                                                          floor. Furthermore, The Department could not locate
WHY READ THE REPORT                                       approximately 71 percent of IT assets that had been
                                                          procured using the E-Procurement System (EPS). In
The U.S. Department of Labor (DOL), Office of             addition, Department security officials could not
Inspector General (OIG), conducted an audit of the        determine whether sensitive data (e.g., personally
inventory of DOL’s sensitive IT hardware and software.    identifiable information (PII)) existed on 377 sensitive IT
The audit objective was to determine if the Department    assets in the Office of the Assistant Secretary for
accounts for its inventory of sensitive IT assets         Administration and Management (OASAM) that had
                                                          been reported lost, missing, or stolen. The Department
The audit covered DOL’ s primary inventory processes,     could not determine if these items — which included
including Procurement, Asset Distribution and Assigned    laptops, desktops, printers, blackberries, and a server
Accountability, Disposal, Reconciliation, and Inventory   — represented a potential information security breach.
Update from October 1, 2006 thru July 6, 2010.
                                                          DOL confirmed it had not certified its IT inventory since
WHY OIG CONDUCTED THE AUDIT                               2007. On January 5, 2010, the Assistant Secretary for
The Office of Inspector General (OIG) is issuing this     Administration and Management required all 24
report due to concerns over recent, high-profile          program agencies to certify its IT inventories. As of
instances of laptop thefts and data breaches, the         July 8, 2010, 11 program agencies had not certified
Federal government has been concerned about Federal       their inventories in the EPMS, the official system of
agencies’ ability to account for their sensitive          record, and 2 agencies had certified their inventories
Information Technology (IT) assets. To push agencies      outside of the EPMS. The remaining 11 program
to examine their risks and make substantial security      agencies had certified their IT inventory as complete
improvements to address these concerns, in 2010 the       and accurate. However, as noted throughout this report,
Office of Management and Budget (OMB) developed an        substantial errors in the inventory data tested were
outcome-focused metric for information security           found.
performance for Federal agencies designed in part to
ensure they are accountable for sensitive IT assets.      Also, written department-wide policy or procedures that
                                                          should govern how program agencies are to dispose of
READ THE FULL REPORT                                      IT assets did not exist.
To view the report, including the scope, methodology,
and full agency response, go to:                          Finally, we noted that one agency developed its own
http://www.oig.dol.gov/public/reports/oa/2011/23-11-      inventory system — duplicating EPMS — without
001-07-001.pdf                                            receiving authorization from the Department to waive
                                                          the required use of EPMS.
               001-07-001.pd001-07-001.pdf
                                                          WHAT OIG RECOMMENDED
                                                          The OIG made six recommendations covering enforcing
                                                          accountability over current policies and developing
                                                          policies for areas such as disposal that presently lack
                                                          coherent policy; establishing a viable inventory
                                                          management system; assessing impact of reported lost,
                                                          missing, or stolen assets; consolidating any duplicative
                                                          inventory systems to realize cost savings; and
                                                          strengthening inventory and security controls.
                                                          Management agreed with the spirit of the
                                                          recommendations and plans to take corrective actions.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
                                    Report No. 23-11-001-07-001
                                                         U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Objective — Can the Department account for its inventory
            of sensitive IT assests?........................................................................... 3
         DOL's inventory system failed to properly account for IT sensitive assets in
         all five phases of the inventory process................................................................ 3

         Finding — DOL's inventory controls and processes are ineffective...................... 3

Recommendations ...................................................................................................... 14

Exhibits
         Exhibit 1 Unassigned Items by Agency as of July 2010 (from EPMS
            Sample Universe).......................................................................................... 18
         Exhibit 2 OASAM Inventory Analysis of Lost/Stolen/Missing IT Assets .............. 20
         Exhibit 3 Agencies' Ability to Reconcile EPS IT Asset Information to EPMS ...... 22
         Exhibit 4 Reconciling Sensitive IT Assets from Floor to EPMS Inventory........... 24
         Exhibit 5 Reconciling Sensitive IT Assets from EPMS to Floor........................... 26
         Exhibit 6 Missing EPMS IT Asset Data............................................................... 28

Appendices
         Appendix A Background ..................................................................................... 32
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 34
         Appendix C Acronyms and Abbreviations .......................................................... 40
         Appendix D OCIO Response to Draft Report ..................................................... 42
         Appendix E Acknowledgements ......................................................................... 46




                                                                            OIG Audit of DOL's Sensitive IT Assets
                                                                                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
                                    Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 31, 2011

                        Assistant Inspector General’s Report



Mr. T. Michael Kerr
Chief Information Officer
U.S. Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210

Due to concerns over recent, high-profile instances of laptop thefts and data breaches,
the Federal government has been concerned about Federal agencies’ ability to account
for their sensitive Information Technology (IT) assets. To push agencies to examine
their risks and make substantial security improvements to address these concerns, in
2010 the Office of Management and Budget (OMB) developed an outcome-focused
metric for information security performance for Federal agencies designed in part to
ensure they are accountable for sensitive IT assets.

In order to gauge the U.S. Department of Labor’s (DOL) ability to account for its
inventory of sensitive IT assets, the Office of Inspector General (OIG) conducted a
performance audit of the inventory of DOL’s sensitive IT hardware and software. Our
audit objective was to answer the following question:

      Can the Department account for its inventory of sensitive IT assets?

The audit covered DOL’s primary inventory processes, including procurement, asset
distribution and assigned accountability, disposal, reconciliation, and the update of
inventory in the Department’s official system of record, the E-Property Management
System (EPMS). Our scope was the period October 1, 2006, through
July 6, 2010, and was limited to selected sensitive IT assets that have a higher security-
risk potential due to loss or theft of the asset and the resulting potential harm that may
occur.

We conducted this performance audit in accordance with generally accepted
government auditing standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions that are consistent with our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. Our objective, scope, methodology, and
criteria are detailed in Appendix B.


                                                               OIG Audit of DOL’s Sensitive IT Assets
                                             1                         Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General



RESULTS IN BRIEF

DOL cannot account for its sensitive IT assets. From our sample, we could not
physically locate approximately 50 percent of assets recorded in the EPMS, and could
not find, and were not provided any records for, approximately 14 percent of IT assets
we located on the floor. Furthermore, The Department could not locate approximately
71 percent of IT assets that had been procured using the E-Procurement System (EPS).
In addition, Department security officials could not determine whether sensitive data
(e.g., personally identifiable information (PII)) existed on 377 sensitive IT assets in the
Office of the Assistant Secretary for Administration and Management (OASAM) that had
been reported lost, missing, or stolen. The Department could not determine if these
items — which included laptops, desktops, printers, blackberries, and a server —
represented a potential information security breach. Our concern over these reported
lost, missing, or stolen items is elevated since OASAM is responsible for human
resources and budget operations, and manages a large IT center.

DOL confirmed it had not certified its IT inventory since 2007. On January 5, 2010, the
Assistant Secretary for Administration and Management required all 24 program
agencies to certify its IT inventories. As of July 8, 2010, 11 program agencies had not
certified their inventories in the EPMS, the official system of record, and 2 agencies had
certified their inventories outside of the EPMS. The remaining 11 program agencies had
certified their IT inventory as complete and accurate. However, as noted throughout this
report, we found substantial errors in the inventory data tested.

Also, written department-wide policy or procedures that should govern how program
agencies are to dispose of IT assets did not exist.

Finally, we noted that one agency developed its own inventory system — duplicating
EPMS — without receiving authorization from the Department to waive the required use
of EPMS.

The obvious and systemic control deficiencies we identified are the result of DOL's
inventory system’s lack of proper accountability of IT sensitive assets in all five phases
of the inventory process — procurement, inventory distribution and accountability,
disposal, reconciliation, and inventory update — and the Chief Information Officer’s
(CIO) lack of oversight. Without significant improvements in oversight, accountability,
and inventory controls, the Department risks the potential of eroding the public’s trust
should an undetected information security breach occur.

We recommended the CIO enforce accountability over current policies and develop
policies for areas such as disposal that presently lack coherent policy. In addition, the
CIO must ensure that information is updated in a viable inventory management system,
assess impact of reported lost, missing, or stolen assets, consolidate any duplicative
inventory systems to realize cost savings, and strengthen inventory and security
controls.



                                                          OIG Audit of DOL’s Sensitive IT Assets
                                             2                    Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General




In responding to our draft report, the Deputy Assistant Secretary for Administration
Management stated that nothing in their response is intended to suggest that
management does not take seriously the recommendations of the OIG and will take
corrective actions. Management acknowledged that there are deficiencies in the
property management system; however, management indicated that the OIG report
contained erroneous assumptions in the following areas: 1) use of the term “Sensitive”
IT Assets, 2) absence of EPS and EPMS functionality descriptions, 3) lack of relevance
of EPS errors to EPMS, and 4) the mischaracterization of a Significant Deficiency. OIG
has responded to each of these issues in the body of the report. In addition,
management responded that recommendation number six, “Integrate a reliable
electronic procurement system with a viable inventory system along with the financial
systems to ensure seamless interoperability,” goes beyond the scope of the audit and
the [OIG] recommendation should be to implement processes to account for its assets.
OIG retains its recommendation since the inventory processes audited have numerous
deficiencies. Automation, along with integration, would be the best approach to ensuring
DOL can account for its inventory.


The agency’s entire response is contained Appendix D.

RESULTS AND FINDINGS

Objective — Can the Department account for its inventory of sensitive IT assets?

     DOL's inventory system failed to properly account for IT sensitive assets in all five
     phases of the inventory process.


Finding — DOL’s inventory controls and processes are ineffective

The control deficiencies identified in the inventory processes of 1) procurement, 2)
inventory distribution and accountability, 3) disposal, 4) reconciliation, and 5) inventory
update, demonstrate the degree to which DOL’s inventory process is ineffective, and to
which management has been inadequate over the years.

1) Procurement

Based upon analysis of the EPS, we found no evidence of controls that ensure proper
recording of all IT assets. From our sample of 432 procurement line items that we
provided to selected agencies, which included sensitive IT assets, these agencies could
not locate 308 line items (approximately 71 percent) of IT assets that were procured
using the EPS.




                                                           OIG Audit of DOL’s Sensitive IT Assets
                                             3                     Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General



When requested, the Department could not provide a complete listing of sensitive IT
assets with their associated dollar amounts procured through the EPS. As such, we
performed a word query of the asset/service description field for IT-related assets within
EPS. EPS Category Code 4, which is utilized to track Electronic and Information
Technology (EIT) procurements, only listed a total of 1,484 IT procurements costing
nearly $1 million1. However, we identified 9,380 procurements associated with IT items
costing nearly $280 million2 that were listed under Category Code 1 (Unclassified
procurements), which did not have the IT assets classified as EIT procurements; nor
were they properly classified as EIT – Category Code 4.

The EPS contains an asset/service description field that allows users to characterize the
assets/services being procured and select the EIT classification code. However, when
users do not select the proper EPS asset /service classification code — in this case, IT
procurements as Category Code 4 — the EPS (as a default) records the asset/service
being procured as unclassified – Category Code 1.

The EPS IT asset data showed various data input errors related to procurement. Our
review of the four largest procurements determined that the Department had not
corrected a coding error, in which a procurement of approximately $1 million was
actually coded as $77 million.

Management believes the above error lacks relevance to the Department’s inventory
system, since EPS is not part of the Department’s inventory system. OIG used EPS
information as a result of the Department’s inventory system starting with the
procurement of goods and services. The EPS is the primary system used for that
purpose; albeit there are also purchases using purchase cards. Use of the EPS data is
relevant, since 9,380 procurements associated with IT items were initiated and
completed using EPS. Inventory reconciliations, when performed, should use accurate
EPS information to determine what sensitive IT equipment was procured and continues
to be in use and managed.

In addition, we identified 204 instances from our population of 9,380 procurements
associated with IT items that had negative order quantity amounts, and 1,105 instances
of where IT items had a unit price of zero dollars. These errors further corrupted the
accuracy of the procurement data within EPS and subsequently the inventory of
sensitive IT assets within the EPMS.

Differentiating sensitive IT hardware and software from other IT procurements is not
possible using the current EPS coding structure. EPS does not differentiate whether an
item being procured is a sensitive IT asset such as a laptop, printer, or software license,
or an office supply item such as an ink cartridge. As a result, managing the procurement
of sensitive IT hardware and software would be extremely difficult using the EPS without
a high degree of human intervention and manipulation of text data.


1
    Actual dollar amount was $997,940
2
    Actual dollar amount was $279,460,380

                                                           OIG Audit of DOL’s Sensitive IT Assets
                                             4                     Report No. 23-11-001-07-001
                                                        U.S. Department of Labor – Office of Inspector General



Since the Department could not provide a list of sensitive IT assets, we identified
procurements of these assets using the process described in the Methodology section
of this report (see Appendix B). This defined universe included 2,406 procurements of
sensitive IT assets costing more than $46.7 million3. These procurements were further
categorized as follows: 1,423 unclassified procurements costing nearly $46 million4; and
983 EIT procurements costing $812,064. From these procurements, we selected the
following two statistical samples totaling 432 procurements to determine if they were
recorded in EPMS:

      •		 270 IT procurements from the 1,423 unclassified procurements. From this
          sample, we identified 217 procurements that were not recorded in EPMS. We
          projected there were about 1,123 unclassified procurements that were not
          recorded in EPMS totaling about $21 million5.

      •		 162 IT procurements from the 983 EIT procurements. From this sample, we
          identified 91 procurements with errors. We projected there were about 551 EIT
          procurements of sensitive IT assets that were not recorded in EPMS totaling
          about $277,0006.


In accordance with Department of Labor Manual Series (DLMS) 9, Chapter 303,
Management & Accountability of Information Resources, all DOL agencies are to
maintain an accurate inventory of their information resources in compliance with the
law.

2) Inventory Distribution and Accountability

We found that, of the IT assets we tested, approximately 24 percent were not assigned
to owners, and the owners’ names were not recorded in the EPMS by the responsible
program agency’s Accountable Property Officers (APO). Without this information in
EPMS, the Department and its program agencies cannot utilize EPMS to properly
manage the inventory and hold owners accountable for their IT assets.

We defined a universe of 29,106 EPMS records from the July 6, 2010, EPMS database
to verify IT asset records. We identified 6,867 IT assets (23.6 percent), costing more
than $1.2 million7 that had unassigned owners (see Exhibit 1). While most program
agencies we reviewed did not consistently record owners of IT assets in the EPMS, the
following program agencies had the greatest percentage of unassigned owners:


3
    Actual dollar amount was $46,769,630
4
    Actual dollar amount was $45,957,566
5
  This projection was achieved with a confidence level of 95 percent and a sampling precision of plus or minus 4.67
percent.
6
  This projection was achieved with a confidence level of 95 percent and a sampling precision of plus or minus 6.92
percent.

7
    Actual dollar amount was $1,221,747

                                                                         OIG Audit of DOL’s Sensitive IT Assets
                                                          5                      Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General


                       Unassigned Owners of Sensitive IT Assets in EPMS
              Agency   Number of          Number of Sensitive IT Percent of
                       Sensitive IT       Assets without an        Sensitive IT
                       Assets Tested      Assigned Owner           Assets without
                                                                   an Assigned
                                                                   Owner
              OPA                     126                     56                44
              ETA                   2,334                    804                34
              OSHA                  3,795                  1,228                32
              ESA                  14,123                  3,842                27

The Department’s DLMS 2, Chapter 100, Property Management, requires agencies to
accurately record in the EPMS the existence, location, and assignment of all assets. In
addition, the APOs are responsible for certifying annual inventories are accurate and
complete within the EPMS.

3) Disposal

Agencies did not consistently update EPMS to record the disposal of sensitive IT
assets. OASAM’s Business Operation Center’s (BOC), Office of Administrative Services
(OAS), was responsible for the Department’s disposal guidelines, however, there was
no written, approved department-wide policy that existed to govern how program
agencies should dispose of IT assets. BOC OAS offers all program agencies disposal
services; however, program agencies did not consistently utilize BOC OAS or record the
disposal of sensitive IT assets. Without a department-wide policy and related
procedures, the potential exists that IT equipment will not be properly sanitized prior to
its disposal, thereby increasing the risk of information security breaches that could go
undetected.

To examine the disposal of sensitive IT assets in EPMS, we reconciled EPMS disposal
information to BOC OAS disposal records. Based on a comparison of June 1, 2010,
EPMS disposal data to disposal records provided by BOC OAS, we identified an overall
discrepancy of 1,576 records pertaining to disposal of IT assets. The examples below
highlight some of these discrepancies:

   •		 The Mine Safety and Health Administration (MSHA) stated it adhered to its own
       agency-specific disposal procedures and did not rely on BOC OAS. MSHA
       reported in EPMS disposal of 15 IT assets (11 printers and 4 laptops) on October
       1, 2007. However, as of October 19, 2007, BOC OAS disposal records indicated
       that MSHA did utilize BOC OAS in disposing of 6 IT assets (2 central processing
       units (CPU), 4 printers, and no laptops).

   •		 The Occupational Safety and Health Administration (OSHA) stated that it used
       the BOC OAS disposal services. OSHA reported in EPMS disposal of 10 laptops
       on October 3, 2007. However, BOC OAS disposal records showed no activity
       until July 16, 2009, at which time OSHA indicated it disposed of 36 laptops.


                                                           OIG Audit of DOL’s Sensitive IT Assets
                                              6                    Report No. 23-11-001-07-001
                                                        U.S. Department of Labor – Office of Inspector General



    •		 The Bureau of Labor Statistics (BLS) stated it used the BOC OAS disposal
        services. BLS did not report any disposal activity in EPMS from October 1, 2009,
        through June 1, 2010. However, BOC OAS disposal records indicated that BLS
        disposed of 309 CPUs on May 7, 2010.

These examples of discrepancies in agencies’ EPMS disposal records and the
Department’s IT asset disposal records indicated the CIO had significant difficulty
assuring agencies were properly sanitizing covered IT assets8 prior to disposal. Without
this assurance, the Department’s systems and sensitive information, including
personally identifiable information, were at increased risk of being compromised.

For example, we identified that 30 OASAM cost centers reported 202 desktops, 51
laptops, 115 printers, 8 blackberries, and 1 server as lost, missing or stolen during
OASAM’s 2010 IT inventory recertification. (See Exhibit 2.) Neither OASAM nor the
Office of the Chief Information Officer (OCIO) provided evidence showing that an
analysis or investigation was performed to determine whether appropriate breach
procedures needed to be initiated and/or adhered to. As a result, the Department had
no way to determine if missing IT assets represented a potential information security
breach. OASAM’s inability to maintain complete records is of particular concern
because it performs Department-wide human resources, budget, and IT-related
functions. It is likely that IT assets used in performing these functions may contain PII
and/or sensitive information.

In following up on our expressed concerns, an OAS official stated its office took a
random sample of 15 reported OAS lost/missing/stolen sensitive IT assets and
determined the assets were disposed of properly. Upon further inquiry, OAS provided
no evidence and/or documentation to corroborate its efforts and final determination that
departmental breach policies did not have to be implemented.

The National Institute of Standards and Technology (NIST) Special Publication (SP)
800-88 – Guidelines for Media Sanitization encourages agencies to develop and use
local policies and procedures in conjunction with its guide to make effective, risk-based
decisions on the ultimate sanitization and/or disposition of media and information. NIST
SP 800-53 states that offices shall track, document, and verify media sanitization and
disposal actions.

DOL’s PII Breach Notification Plan states that “reporting requirements do not distinguish
between potential and confirmed breaches.” They also state:

         When incidents involve PII, agency Information Security Officers (ISO)
         must follow DOL Computer Security Handbook (CSH) Volume 8, Incident
         Response Procedures, for notifying DOL Computer Security Incident
         Response Capability (DOLCSIRC) using the standard incident reporting
         form. Agency ISOs are responsible for notifying DOLCSIRC of any
8
 Covered IT assets include those with data storage capability, e.g., servers, laptops, desktops, PDA's, printers, and
copiers.

                                                                          OIG Audit of DOL’s Sensitive IT Assets
                                                          7                       Report No. 23-11-001-07-001
                                             U.S. Department of Labor – Office of Inspector General



           suspected breaches of PII within their agency; DOLCSIRC will then
           document the incident in the DOL incident tracking system and notify the
           United States – Computer Emergency Readiness Team (US-CERT) within
           1 hour of notification. DOLCSIRC will also notify the DOL PII Breach
           Notification Team.

Management believes that the use of the term “Sensitive” IT assets is misused in the
report. Management defined in their response that security sensitivity of an asset is
based on the type of data stored or processed on the asset, as well as the function of
the asset. OIG’s audit work did not specifically evaluate the security sensitivity of an IT
asset, rather the work assessed whether the Department had effectively accounted for
its sensitive IT assets, as defined by departmental policy. OIG identified deficiencies in
the inventory processes such as not physically locating approximately 50 percent of
EPMS sampled sensitive IT assets, agencies not recording owners of the IT assets,
agencies not performing inventory reconciliations, and agencies not submitting accurate
inventory certifications. Overall, these deficiencies have the potential to exposing the
agencies to unnecessary risk, since the IT assets OIG audited were sensitive IT assets
that have the capabilities of storing and accessing sensitive systems and information.

4) Reconciliation

The Department did not have written policies and procedures for performing
reconciliations using its EPS procurement and EPMS inventory and disposal
information. Without inventory reconciliation policies and procedures, the Department
and agencies could not accurately and completely account for their IT assets. To
assess the effectiveness of the IT reconciliation process, we performed verification tests
in several ways, as follows:

      •		 Using EPS to request that program agencies confirm IT asset existence and
          provide the descriptive information required in the EPMS.

      •		 Conducting walk-throughs of program agency offices to physically confirm that
          sampled assets from locations in related offices (floor) were recorded in the
          EPMS inventory.

      •		 Verifying IT assets from the EPMS inventory to IT assets physically found on the
          floor to confirm that these sampled assets in the EPMS inventory were located
          where specified.

We defined an EPS universe of procurements to perform verification testing of IT asset
procurements. This defined universe comprised 2,406 procurements, totaling more than
$46.7 million9.




    Actual dollar amount was $46,769,630
9



                                                            OIG Audit of DOL’s Sensitive IT Assets
                                              8                     Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General



Testing Agencies’ Ability to Reconcile EPS Sensitive IT Assets – We selected a
sample of 231 procurements and provided the agencies with their respective inventory
information. We requested each agency to confirm the assets’ existence and the
descriptive information required to be recorded in EPMS. The agencies were unable to
provide all of the requested data, including EPMS-required asset information, i.e., asset
ID number, barcode number, serial number, model number, manufacturer, status
description, asset assignment, location, and inventory class (see Exhibit 3). The chart
below highlights which agencies had the most difficulty in providing all of the required
asset information:

             Agencies That Had the Most Difficulty Reconciling EPS Sensitive IT
                                Asset Information to EPMS
                                  Number of         Number of        Percent of
                                 samples for       samples for      samples for
                    Number of     which data       which data       which data
           Program selected      request was request was not request was not
           Agency    samples       satisfied         satisfied        satisfied
           OASAM       45              0                 45              100
           OFCCP       28              0                 28              100
           OWCP        22              0                 22              100
           WHD         22              0                 22              100
           EBSA         9              2                  7               78
           OSHA        48            19                  29               60



Conducting Walk-Throughs and Testing IT Assets from Floor to EPMS Inventory –
We performed on-site testing in the program agencies by conducting a walk-through of
the program agencies’ offices and judgmentally selecting 270 sensitive IT assets from
locations on the floor to reconcile back to the EPMS inventory. Although some agencies
did not have issues with reconciliation, based on the test results, the Department did not
have any records in the EPMS for 38 floor items (14 percent) (see Exhibit 4). Program
agencies showing greater reconciliation problems are shown below:

                Reconciling Sensitive IT Assets from Floor to EPMS Inventory
         Program
         Agency    Selected Items      Items Not Located in EPMS    Percent Missing
           ETA            30                       18                      60
         OFCCP            25                        7                      28
          OWCP            25                        4                      16
          DITMS           20                        3                      15

Testing Sensitive IT Assets from EPMS Inventory to Floor - We tested a sample of
251 IT assets from a defined universe of 29,106 EPMS IT assets. We verified whether
they existed at the location specified in EPMS. Of this sample, 125 assets (50 percent)
recorded in EPMS could not be located (see Exhibit 5). The program agencies that had
the most difficulties in its inventory are highlighted in the following table:


                                                           OIG Audit of DOL’s Sensitive IT Assets
                                             9                     Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General




             Program Agencies with the Most Difficulties Reconciling Sensitive IT
                                 Assets from EPMS to Floor
                       Total Number     Number of Sensitive Percent of Sensitive
          Program      of Sensitive IT IT Assets               IT Assets Not
          Agency       Assets           Not Located            Located
          OASAM                  38                      30                     79
          OFCCP                  42                      23                     55
          WHD                    29                      15                     52
          OWCP                   44                      21                     48
          MSHA                   19                       8                     42
          ETA                    41                      17                     41

Since the Department has not completed the integration of these systems, reconciliation
of IT inventory assets will likely continue to be inaccurate and incomplete.

5) Inventory Update

Prior to the start of our audit, the Department had not certified its inventory of IT assets
since 2007. On January 5, 2010, the Assistant Secretary for Administration and
Management required each program agency to certify its inventory and update EPMS to
record and track the assets. As of July 8, 2010, 11 program agencies did not certify their
inventories in EPMS and 2 agencies certified their inventories outside of EPMS. The
remaining 11 program agencies certified their IT inventories as complete and accurate.
However, as noted throughout this report, we found substantial errors in the inventory
data tested.

Without full and accurate accounting of the Department’s IT assets, the risks to DOL’s
information security program, systems, and information — in particular, sensitive
information — is unnecessarily increased.

IT Software Inventory was Not Updated in EPMS – Overall, program agencies were
not updating EPMS with commercial off-the-shelf software license asset information.
We identified software items in EPMS for the Employment and Training Administration
(ETA), Employment Standards Administration (ESA), OSHA, and OASAM. However,
the actual number of listed assets in EPMS was very low. When confirming this
information with program agency representatives, they confirmed that their respective
inventories of software licenses in EPMS were incomplete. Additionally, software
licenses were not found in EPMS for the Employee Benefits Security Administration
(EBSA), BLS, and MSHA.

IT Hardware Inventory was Not Updated in EPMS – Program agencies were not
updating EPMS with hardware information. Using the agencies’ 2010 inventory
certifications and the updated data in EPMS, we found that 21 percent of the required
EPMS data fields were left blank (see Exhibit 6). These discrepancies highlight the
Departments inability to determine an accurate inventory of IT hardware.


                                                           OIG Audit of DOL’s Sensitive IT Assets
                                             10                    Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General



BLS Opted Out of EPMS – BLS did not adhere to departmental requirements to
properly maintain inventory data within the EPMS because the agency had created and
implemented a separate, unauthorized Asset Management System (AMS). All BLS
inventory data in EPMS, which consisted of 894 IT assets costing more than $3.8
million10, were “test” data. BLS provided a series of emails from OCIO, OASAM and
BLS officials that acknowledged BLS developed AMS for the purpose of not using
DOL’s EPMS while DOL was working toward an integrated solution for inventorying its
assets. BLS informed the Department it would have a separate AMS, however, BLS did
not receive an exemption from maintaining a proper inventory in the Department’s
EPMS, and the Department did not enforce BLS’ compliance with current inventory
policies.

Although the Department was aware that BLS was utilizing the AMS as an inventory
system running parallel to EPMS, the Department was not aware that BLS updated the
EPMS with test data. The inclusion of test data in a production system risks the
corruption of the EPMS and places the Department at risk for misusing the test
information for decision-making and assessing risks to its information security program.
OASAM officials stated they planned to remove this test data from the EPMS, but did
not provide documentation as to when this action will be completed. Nonetheless, the
BLS AMS contradicted the purpose of having one central departmental inventory
system. The elimination of BLS’s AMS would present the Department with a
consolidation opportunity and cost savings by eliminating the duplication of an
administrative system.

BLS officials maintained that the AMS was properly categorized under the Federal
Information Processing Standards (FIPS) 199, and was certified and accredited under
its Management of Information Systems infrastructure security package. BLS provided a
system baseline diagram of its Management of Information Systems (MIS), which was
comprised of a number of financial, human resources, and other administrative
applications, which included the AMS. However no documentation was provided that
categorized the system as a high, medium, or low risk system, as required by FIPS 199.

DLMS 2, Chapter 100 Property Management, requires all DOL agencies and offices
nationwide to utilize EPMS to keep inventory of accountability property, with the
exception of the Office of Job Corps (JC). In addition, the policy requires program
agencies’ APOs to be responsible for certifying annual inventories that are accurate and
complete within EPMS.

DLMS 9, Chapter 303, Management & Accountability of Information Resources , states
that all DOL agencies will maintain an accurate inventory of their information resources
in compliance with the law, including the E-Government Act (including the Federal
Information Security Management Act (FISMA)), the Paperwork Reduction Act, the
Clinger-Cohen Act, and related CIO and OMB guidance



10
     Actual dollar amount was $3,884,152

                                                          OIG Audit of DOL’s Sensitive IT Assets
                                            11                    Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General



The DOL CSH, Volume 4, Section I, C&A Policies, Subsection 1.5, requires that all DOL
information systems undergo the certification and accreditation process and be
authorized to operate before being placed into the production environment. Minor
applications may be included in the certification and accreditation of a major information
system; otherwise, they must undergo a separate certification and accreditation
process.

Reasons for the Systemic Conditions in the Inventory Process

We identified three primary reasons why management of DOL’s inventory of Sensitive
IT assets was ineffective:
    • the inventory system was not integrated,
    • not all program agencies used or relied on EPMS, and
    • OCIO did not perform monitoring and oversight.

Each of these is explained further below.

   •   The Inventory system was not integrated.

       There was no electronic interconnection between EPS and EPMS. A
       post-implementation review of the EPMS system commissioned by OASAM/BOC
       in December 2006 recommended that EPS be integrated with EPMS to provide a
       mechanism to streamline the management of property from its inception. This
       same review also recommended EPMS to have connectivity to the personnel
       database for automated updates of personnel status. OASAM EPMS Risk
       Assessment, as early as 2007, identified and emphasized the requirement that
       EPMS integrate fully with both EPS and financial systems to ensure seamless
       interoperability. Not implementing the recommendation and meeting the system
       requirement now makes it difficult, if not impossible, to account for all current
       assets, disposals, and the creation of a new, updated inventory, including
       sensitive IT assets. Program agencies had created unofficial records, followed ill-
       advised practices, and developed an unauthorized inventory system, which
       placed added stress on the Department’s information security program.

       Management believes the statements above are factually correct, but that there
       is no requirement that the systems be connected and electronic integration of the
       two systems is not part of the design. OIG was not implying the Department is
       required to have the systems connected and integrated to account for the
       Departments’ IT assets. OIG was making the point that the Department had
       already received information that EPS be integrated with EPMS to provide a way
       to account for IT assets from its inception, but did not act on the information.

   •   Not all program agencies used or relied on EPMS.

       Based upon response to an OIG survey that asked each program agency to
       disclose its inventory methods and practices, the results showed that not all

                                                           OIG Audit of DOL’s Sensitive IT Assets
                                             12                    Report No. 23-11-001-07-001
                                       U.S. Department of Labor – Office of Inspector General



   program agencies were using EPMS as their primary inventory method/property
   system to track and record inventory. Four of 19 program agencies who
   completed the survey stated they did not use the Department’s EPMS system to
   track and record inventory, including IT assets. Following is a description of the
   four agencies’ methods of recording and tracking their IT assets:

   •		 Office of the Secretary (OSEC) and the Adjudicatory Boards (Administrative
       Review Board, Benefit Review Board, and Employees’ Compensation
       Appeals Board) stated that they used an Excel spreadsheet.

   •		 ETA stated it used a Computer Associates IT client system.

   •		 BLS stated it used an agency-specific E-Property system, AMS.

•		 OCIO did not perform Monitoring and oversight.

   The OCIO had not implemented required reviews of the program agencies'
   information resources accountability and inventory practices and procedures to
   ensure they met all legal requirements.

   The Department’s DLMS 9 - Chapter 300, Management & Accountability of
   Information Resources, Paragraph 306.A, requires the OCIO to be responsible
   for performing periodic review of the program agencies' information resources
   accountability and inventory practices and procedures to ensure each met all
   legal requirements.

   DOL’s information security program has worsened as a result of the deficiencies
   identified in this report, as well as several years of neglect in certifying their
   inventories to assure DOL’s inventory of assets, especially IT assets, were fully
   accounted for through management of a viable asset inventory system. Without
   significant improvements in oversight, accountability, and inventory controls, the
   Department risks serious harm to its systems and information, including the
   potential of eroding the public’s trust should an undetected information security
   breach occur. The issues identified in this report present management with
   serious challenges in lowering security risks and improving the management of
   sensitive IT assets and its data. The impact from these identified issues on
   DOL’s information security program and related control vulnerabilities meet the
   definition of a significant deficiency under FISMA.

   Management’s view is that the information provided does not warrant the
   classification of a significant deficiency. OIG’s determination, using OMB M-10-
   15 dated April 21, 2010, determined that inventory of sensitive IT assets was not
   a design flaw; however, the deficiency was identified across multiple systems,
   had the potential of compromising agency information systems and other
   resource operations or assets, and that a prudent official would conclude that the


                                                      OIG Audit of DOL’s Sensitive IT Assets
                                        13                    Report No. 23-11-001-07-001
                                             U.S. Department of Labor – Office of Inspector General



      deficiency is at least a significant deficiency. A significant deficiency is identified if
      only one of these factors is determined to exist.

RECOMMENDATIONS

Because of the significant deficiency identified in managing sensitive IT assets, we
recommend the CIO immediately take the following actions:

   1. Assess and take appropriate measures to ensure reports of lost, missing, or
      stolen sensitive IT assets have not resulted in loss of sensitive (PII) information in
      accordance with US-CERT and DOL Information Breach Policy and Procedures.

   2. Perform a full inventory of the Department’s IT assets that is accurate and
      complete including an update of the information into a viable inventory
      management system.

   3. Consolidate all inventory systems throughout DOL to eliminate duplication,
      realize cost savings, and strengthen inventory and security controls over IT
      assets.

   4. Perform required reviews of program agencies’ inventory practices and
      procedures to ensure full participation in the inventory process across the
      Department and compliance with Federal information system requirements.

   5. Develop policies for disposal of sensitive IT assets that presently lack coherent
      policy.

   6. Integrate a reliable electronic procurement system with a viable inventory system
      along with the financial systems to ensure seamless interoperability.


We appreciate the cooperation and courtesies that departmental and program agency
personnel extended to the Office of Inspector General during this audit. OIG personnel
who made major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                            OIG Audit of DOL’s Sensitive IT Assets
                                              14                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              15                    Report No. 23-11-001-07-001
           U.S. Department of Labor – Office of Inspector General




Exhibits




                          OIG Audit of DOL’s Sensitive IT Assets
            16                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              17                    Report No. 23-11-001-07-001
                                              U.S. Department of Labor – Office of Inspector General



                                                                    Exhibit 1
Unassigned Items by Agency as of July 2010 (from EPMS Sample Universe)


                                         Number     Number     Percentage       Percentage       Total Cost of
                                         of Items      of      Unassigned      Unassigned        Unassigned
                                          Total      Items      of Agency      of Dept Total        Items
                  Agency                            Missing        Total
Adjudicatory Boards                           245          0               0                0            $0.00
Assistant Secretary for Policy                 12          0               0                0            $0.00
Bureau of International Labor Affairs         142         20           14.1               0.1            $0.00
Bureau of Labor Statistics                    786         60             7.6              0.2      $102,536.00
Employee Benefit Security
Administration                                477        47              9.9              0.2            $466.31
Employment and Training
Administration                              2334        804            34.4               2.8      $586,065.05
Employment Standards Administration        14123       3842            27.2              13.2      $457,338.53
Mine Safety and Health Administration       1135          4             0.4                 0        $2,774.00
Occupational Safety and Health
Administration                              3795       1228            32.4               4.2           $6,026.00
Office of Administrative Law Judges          332          1             0.3                 0             $239.00
Office of Congressional and
Intergovernmental Affairs                      43         4             9.3                 0              $0.00
Office of Disability Employment Policy         16         0               0                 0              $0.00
Office of Public Affairs                      126        56            44.4               0.2              $0.00
Office of Small Business Programs              10         0               0                 0              $0.00
Office of the Asst Secretary for Admin
and Management                              3332        374            11.2               1.3       $49,217.96
Office of the Chief Financial Officer        309         14             4.5                 0       $12,699.00
Office of the Inspector General              341        144            42.2               0.5            $0.00
Office of the Secretary                      194          0               0                 0            $0.00
Office of the Solicitor                      890        196            22.0               0.7        $1,619.85
Office of Veterans' Employment and
Training                                      204        43            21.1               0.1              $0.00
Office of Security and Emergency
Management                                    84          2             2.4                 0            $0.00
Women's Bureau                               176         28            15.9               0.1        $2,765.40
Total                                      29106       6867                             23.60       $1,221,747




                                                               OIG Audit of DOL’s Sensitive IT Assets
                                               18                      Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              19                    Report No. 23-11-001-07-001
                                                         U.S. Department of Labor – Office of Inspector General



                                                                                                     Exhibit 2
OASAM Inventory Analysis of Lost/Missing/Stolen IT Assets

 Cost
Center                  Cost Center Names                      Desktop   Laptop   Printer   Blackberry    Server
Number

  6520                                                           18        1         4           0           0
          OAS -Office of Space Management
  6510    OAS -Office of Customer Services                       0         0         1           0           0
          Division of Engineering -FPB Real Property
  6085                                                           8         0         2           0           0
          operations and Recurring Property Operations
  6500    OAS -Office of the Director                            13        2         6           0           0
          Division of Mail and Distribution Services
  6583                                                            8        0         5           0           0
          (DMDS)
 6084,    6084 is Division of Building Management and
                                                                 16        0        15           0           0
 6581     6581 is Office of Facilities Management
 6200     BOC                                                     6        12        1           0           0
          Office of Printing and Supply Management
  6561                                                           25        1         5           2           0
          (OPSM)
  6280    BOC-Office of Competitive Sourcing                      3        0         1           0           0
  4006    Office of Small Business Programs                      12        2        11           0           0
  6220    BOC-Cost Determination                                  1        1         0           0           0
  6270    BOC-Office of Acquisition Services                      1        2         1           1           0
  6040    OASAM                                                   3        0         2           0           0
  6045 BOC -Worker Safety and Health                              3        2         5           3           0
6100 and 6100 is HRC-Office of the Director 6155 is Office
                                                                  4        9         0           0           0
  6155 of Administrative and Management Services
  6840 Human Resources Center-Atlanta                             0        0         1           0           0
         Office of Security and Emergency Management -
  6400                                                            1        1         0           0           0
         Immediate Office
         CPPR-Historian is code 6051and 6550 if the
6051 and
         Office of the Assistant Secretary for Admin. &           6        0         7           0           0
  6550
         Management-Library
4843 and Woman’s Bureau-field office Atlanta is 4844 and
                                                                 1         0         1           0           0
  4844 4843 is OPA field services-Atlanta
6760 and Civil Right Center (CRC) Dallas and Denver
                                                                 2         0         5           0           0
  6780
                                               11
  6600    Information and Technology Center                      0         0         0           0           0
  6070    Department Budget Center                               46        3        21           0           0
  6710    CRC-Boston                                             20        12       16           1           1
          CRC -Office of Enforcement; Office of Mediation,
 6700-
          Counseling, and Evaluation; Office of                  5         3         5           1           0
 6707
          Compliance Assistance and Planning
Overall
                                                                 202       51     115            8           1
Totals




11
  The Departments Information and Technology Center stated that they were instructed to mark all unaccounted IT
assets as disposed.

                                                                         OIG Audit of DOL’s Sensitive IT Assets
                                                          20                     Report No. 23-11-001-07-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                         OIG Audit of DOL’s Sensitive IT Assets
           21                    Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                        Exhibit 3
Agencies' Ability to Reconcile EPS IT Asset Information to EPMS



                                                         No. of items for
                                No. of items for which
  Agency   Number of selected                            which data         Percent of items for
                                data request was
           Items                                         request was not    which data request
                                satisfied
                                                         satisfied          was not satisfied



   EBSA                    9                      2                  7                     78
    ETA                   20                     10                 10                     50
   MSHA                   37                     17                 20                     54
  OASAM                   45                      0                 45                    100
  OFCCP                   28                      0                 28                    100
   OSHA                   48                     19                 29                     60
   OWCP                   22                      0                 22                    100
   WHD                    22                      0                 22                    100
   Total                 231                     48                183                     79




                                                           OIG Audit of DOL’s Sensitive IT Assets
                                            22                     Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              23                    Report No. 23-11-001-07-001
                                         U.S. Department of Labor – Office of Inspector General



                                                                                   Exhibit 4
Reconciling Sensitive IT Assets from Floor to EPMS Inventory


                Number of      Items Not Located in
   Agency                                                Percent Missing
              Selected Items          EPMS
   OASAM            30                  1                        3
    EBSA            30                  0                        0
   OHSA             30                  0                       0
   MSHA             30                  2                        7
     ETA            30                 18                       60
   OWCP             25                  4                       16
   OLMS             25                  0                       0
   OFCCP            25                  7                       28
    WHD             25                  3                       12
   DITMS            20                  3                       15
   Totals          270                 38                       14




                                                        OIG Audit of DOL’s Sensitive IT Assets
                                          24                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              25                    Report No. 23-11-001-07-001
                                       U.S. Department of Labor – Office of Inspector General



                                                                                 Exhibit 5
Reconciling Sensitive IT Assets from EPMS to Floor

          Number of   Number of                      Number of
                                  Percent of Items                   Percent of Items Not
 Agency    Selected     Items                        Items Not
                                      Located                             Located
            Items      Located                        Located

 OASAM       38           8            21.05              30                 78.95
  OSHA       17          11            64.71              6                  35.29
  EBSA       11           9            81.82              2                  18.18
 OWCP        44          23            52.27              21                 47.73
  OLMS       10           7            70.00              3                  30.00
 OFCCP       42          19            45.24              23                 54.76
  MSHA       19          11            57.89              8                  42.11
  ETA        41          24            58.54              17                 41.46
  WHD        29          14            48.28              15                 51.72
 TOTAL       251         126           50.20             125                 49.80




                                                      OIG Audit of DOL’s Sensitive IT Assets
                                        26                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              27                    Report No. 23-11-001-07-001
                                       U.S. Department of Labor – Office of Inspector General



                                                                                 Exhibit 6
Missing EPMS IT Asset Data


Missing IT Asset Data        Number   Total     Total         Total         Percent of
                             of       Records   Number of     Number of     Total Fields
                             Fields             Fields        Blank         that are Blank
                                                              Fields
From EPMS Sample                 33    29,106       960,498       205,064                21
From EPMS Overall                33    47,821     1,578,093       332,208                21




                                                      OIG Audit of DOL’s Sensitive IT Assets
                                        28                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              29                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




Appendices




                            OIG Audit of DOL’s Sensitive IT Assets
              30                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              31                    Report No. 23-11-001-07-001
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix A
Background

Due to concerns over recent high-profile instances of laptop thefts and data breaches,
the Federal government has been concerned about Federal agencies’ ability to account
for its sensitive IT assets. To push agencies to examine its risks and make substantial
security improvements to address these concerns, in FY 2010 the Office of
Management and Budget (OMB) developed an outcome-focused metric for information
security performance for Federal agencies designed in part to ensure that Federal
agencies are accountable for sensitive IT assets.

Securing our nation against cyber attacks has become one of the Nation’s highest
priorities. To achieve this objective, networks, systems, and the operations teams that
support them must vigorously defend against external attacks. Furthermore, for those
external attacks that are successful, defenses must be capable of thwarting, detecting,
and responding to follow-on attacks on internal networks as attackers spread inside a
compromised network.

A central tenet of the U.S. Comprehensive National Cyber-security Initiative is that
“offense must inform defense.” In other words, knowledge of actual attacks that have
compromised systems provides the essential foundation on which to construct effective
defenses. The U.S. Senate Homeland Security and Government Affairs Committee
moved to make this same tenet central to the FISMA Federal Information Security
Management Act in drafting requirements for FISMA 2009. The new proposed
legislation calls upon Federal agencies to “Establish security control testing protocols
that ensure that the information infrastructure of the agency, including contractor
information systems operating on behalf of the agency, are effectively protected against
known vulnerabilities, attacks, and exploitations.”

Our audit objective was derived from the Consensus Audit Guidelines (CAG) and NIST-
required, minimum security controls. CAG is a collaborative effort between industry and
government to protect Federal and contractor information and information systems by
identifying the most critical security controls to defending our nation’s cyber systems
from attacks. The CAG has identified critical controls specific to the inventory of IT
devices and software. These controls correspond to NIST minimum security controls
Configuration Management (CM) – 8 – Information System Component Inventory, and
Certification and Accreditation (CA) – 7 – Continuous Monitoring.

In addition, OMB issued in a set of information security performance metrics that
emphasize, among other items, the management of IT hardware and software
inventories and includes the Agency’s ability to accurately and completely identify and
track its related Sensitive IT resources.

DLMS 2, Chapter 100, Property Management, assigns responsibilities for property
management within DOL and sets forth guidance on the entire life cycle for property
management from acquisition through retirement.

                                                         OIG Audit of DOL’s Sensitive IT Assets
                                           32                    Report No. 23-11-001-07-001
                                                        U.S. Department of Labor – Office of Inspector General



The maintenance and tracking of IT hardware and software inventory is a decentralized
process throughout the Department. The Department's Information and Technology
Center has indicated that it has responsibility to track and maintain IT hardware and
software for those agencies housed on the Employee Computer Network12. ITC and all
other agencies are expected to track and maintain IT hardware and software using
EPMS in accordance with DLMS 2 – Chapter 100 on Property Management. The only
exception is the JC Data Center, which utilizes its own system — Job Corps Electronic
Property Management System — to record and track data center property. All other JC
inventory is maintained by ETA.

The EPS is used to procure IT hardware and software costing more than $3,000. Per
the Department’s Purchase Card Program Handbook, “It is DOL policy to use the
purchase cards whenever possible in lieu of purchase orders of $3,000 or less.” The
Capitalized Asset Tracking and Reporting System are used to track DOL hardware and
software assets valued at $50,000 and above.




12
   Agencies on the ECN comprise the following: Bureau of International Labor Affairs (ILAB); Office of the Chief
Financial Officer (OCFO); Office of Congressional & Intergovernmental Affairs (OCIA); Office of Disability
Employment Policy (ODEP); Office of Public Affairs (OPA); Office of the Secretary (OSEC); Office of the Solicitor
(SOL); Office of the Assistant Secretary for Administration & Management (OASAM); Office of the Assistant
Secretary for Policy (OASP); Veterans' Employment & Training Services (VETS); Women's Bureau (WB);
Administrative Review Board (ARB); Benefits Review Board (BRB) ; Office of Small Business Program (OSBP)


                                                                         OIG Audit of DOL’s Sensitive IT Assets
                                                         33                      Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

        Can the Department account for its inventory of sensitive IT assets?

Scope

The audit covered procurement, inventory distribution and accountability, disposal of IT
assets, reconciliation, and inventory update of sensitive IT hardware and software
(property) during the period of October 1, 2006 through July 6, 2010 across the
Department, comprising the following 10 program agencies:

   •    EBSA
   •    BLS
   •    ETA
   •    MSHA
   •    OSHA
   •    Office of Federal Contract Compliance Programs (OFCCP)
   •    Office of Labor-Management Standards (OLMS)
   •    OASAM
   •    Office of Workers' Compensation Programs (OWCP)
   •    Wage and Hour Division (WHD)

Our scope included the first five categories of sensitive property included in DLMS 2
Chapter 100, Property Management. These properties have personal appeal and
subject to theft, security concerns or considered mission critical. They are as follows:

            (1) 	 CPUs (All components of a computer would be classified as an
                  accessory item for tracking purposes, e.g. a monitor is an accessory
                  component of a computer)
            (2) 	 BlackBerries/Personal Digital Assistants (PDA)
            (3) 	Laptops
            (4) 	Printers
            (5) 	 Software licenses*

   * Software only included commercial off-the-shelf software.

Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our

                                                          OIG Audit of DOL’s Sensitive IT Assets
                                            34                    Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General



findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

A performance audit includes obtaining an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. Our work on internal controls included obtaining
and reviewing policies and procedures and interviewing key personnel. We evaluated
internal controls pertaining to assessing the reliability of related data maintained on EPS
and the EPMS. We reviewed DOL’s IT policies and procedures; reports on system
controls and internal monitoring reports. We did not intend to form an opinion on the
adequacy of internal controls overall, and we do not render such an opinion.

To achieve the audit’s objective, we assessed the quality of sensitive IT asset data
contained in the EPS and the EPMS by (1) performing analytical tests of data elements,
(2) interviewing agency officials knowledgeable about data and system controls, (3)
reviewing OIG and GAO reports on EPS and IT Inventories, (4) utilizing corroborating
on-line EPMS records, (5) examining records, (6) verifying the existence of assets
recorded in the EPMS, and (7) tracing selected assets to source documents. Based on
these tests and assessments, we concluded the EPS data was sufficiently reliable to be
used in meeting the audit objective, with the exceptions of classification of category
code, the 204 occurrences of negative quantity ordered, and the 1,015 procurements
with a unit price of zero dollars. We performed the following specific audit procedures
for each major audit segment:

Procurement

We analyzed the procurements in the EPS with the category code 1 (unknown) and
category code 4 (EIT) for the period between October 2006 through December 2009.
We identified 2,406 procurements made by the 10 program agencies with descriptions
that indicated sensitive IT properties, such as server, laptop, PDA/ blackberry, printer,
and software. From these 2,406 procurements, we selected two stratified statistical
samples as defined below that included 432 procurements using a 95 percent
confidence level and a sampling precision of plus or minus 7 percent.

   •		 For category code 1 procurements, we statistically sampled 270 IT procurements
       from the 1,423 unclassified procurements. .

   •		 For category code 4 procurements, we statistically sampled 162 IT procurements
       from the 983 EIT procurements.

We compared these samples to inventory records to determine if the procurements
were recorded on the inventory records.




                                                          OIG Audit of DOL’s Sensitive IT Assets
                                            35                    Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General




Inventory Distribution and Accountability

We utilized the EPMS database provided by the Department to generate a universe for
our analysis. We removed any records from the database that were outside the
timeframe of the audit scope. Then we reviewed the universe and removed any records
outside the scope of the audit type of items being reviewed (those being CPUs),
BlackBerries/ PDAs) Laptops, Printers and Software Licenses). Finally we reviewed the
universe for any records that were outside of the scope of the audit status (only items
that are in-service are being examined); the auditors removed all records with status
descriptions that were not "In-Service". Once this work was completed we examined
the resultant universe in a spreadsheet and constructed charts with analysis, for
instance the breakdown of blank fields across all of the data and an examination of the
number of items that were unassigned broken down by Agency.

Reconciliations

To gain a better understanding of Sensitive IT assets for the EPS and the EPMS
activities, we sampled procurements and inventories and performed appropriate data
reliability procedures for our physical inventory testing at DOL’s 10 program agencies to
include (1) testing the existence of items in the database by observing the physical
existence of items at DOL national office and IT equipment selected in our sample, and
(2) testing the completeness of the EPMS database by performing a “floor-to-inventory”
inspection at DOL and judgmentally selecting inventory items in our sample to
determine if these items were maintained in EPMS inventory records.

In addition, we interviewed DOL agency officials, property management staff, and other
DOL employees. We also interviewed DOL officials concerning the migration of EPMS.
Additionally, we judgmentally selected items for on-site testing in the 10 program
agencies by conducting a walk through of the agencies’ offices and selecting sensitive
IT assets from the floor to reconcile to the EPMS inventory.

Disposal

We interviewed OASAM officials to identify the existence of department-wide policies
and procedures that govern how the program agencies are to dispose of IT assets. In
addition, we extracted disposal activity from EPMS ranging from October 1, 2007 –
June 1, 2010. We compared this activity to the activity shown in a disposal report
provided by OASAM officials within the same date range to identify if there were any
discrepancies. To identify whether or not a potential for an information security breach
was present, we obtained copies of the I-2094 forms from OASAM by Cost Center to
determine sensitive IT assets that were reported lost/missing/stolen during the 2010
recertification process.




                                                           OIG Audit of DOL’s Sensitive IT Assets
                                             36                    Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General



Inventory Update

On January 5, 2010, the Assistant Secretary of OASAM required all program agencies
to verify their respective inventories and update EPMS to record and track the assets.
We reviewed the certifications as of July 8, 2010, and performed an analysis to confirm
the validity of those agencies that certified their inventory as complete and accurate. In
addition, we asked program agencies to confirm how they maintained their software
licenses. Next, we performed analysis of the entire EPMS database from October 1,
2007 – July 6, 2010 to identify missing data and/or errors within the system. Using this
same database, we sorted the data by program agency to identify how much of the
database consisted of BLS information (the number of assets and costs associated) in
lieu of them maintaining their inventory separately from the rest of the Department. We
requested that BLS provide documentation that the Department granted it an exemption
from maintaining its inventory in the Department’s EPMS. Finally, we requested BLS to
provide documentation that its separate inventory system, AMS, was categorized by
risk, as required by FIPS 199.

The obvious and systemic control deficiencies we identified are the result of DOL's
inventory system’s lack of proper accountability of IT sensitive assets in all five phases
of the inventory process — procurement, inventory distribution and accountability,
disposal, reconciliation, and inventory update — and the Chief Information Officer’s
(CIO) lack of oversight. Without significant improvements in oversight, accountability,
and inventory controls, the Department risks the potential of eroding the public’s trust
should an undetected information security breach occur.


Criteria

DLMS
  •		 DLMS 2, Administration, Chapter 100, Property Management, dated May 2, 2005
  •		 DLMS 6, Financial Management, Chapter 730, Management of Capitalized
      Assets, dated June 12, 2003
  •		 DLMS 6, Financial Management, Chapter 750, Leases & Software Licenses,
      dated December 21, 2006
  •		 DLMS 9, Information Management, Chapter 200, IT Capital Investment
      Management, dated March 31, 2004
  •		 DLMS 9, Information Management, Chapter 300, Management & Accountability
      of Information Resources, dated August 12, 2003
  •		 DLMS 9, Information Management, Chapter 400, Security, dated February 15,
      2007
  •		 DLMS 9, Information Management, Chapter 600, IT Accessibility Management,
      dated, March 25, 2005
  •		 DLMS 9, Information Management, Chapter 1000, Software Management, dated
      August 12, 2003
  •		 DLMS 9, Information Management, Chapter 1200, Safeguarding Sensitive Data
      Including Personally Identifiable Information, dated January 8, 2008

                                                          OIG Audit of DOL’s Sensitive IT Assets
                                            37                    Report No. 23-11-001-07-001
                                           U.S. Department of Labor – Office of Inspector General




CAG
  •		 Critical Control 1: Inventory of Authorized and Unauthorized Devices
  •		 Critical Control 2:Inventoy of Authorized and Unauthorized Software

NIST SP 800-53
   •		 AC: Access Control
   •		 CM: Configuration Management
   •		 SA: System & Services Acquisition
   •		 CA: Certification, Accreditation, and Security Assessments

NIST SP 800-88
   •		 Guidelines for Media Sanitization

FIPS 199
   •		 Standards for Security Categorization of Federal Information and Information
       Systems

DOL PII Breach Notification Policy

Joint Financial Management Improvement Program Inventory and Supplies
Management (JFMIP)
   •		 JFMIP-SR-OO-4 Property Management System Requirements

Department of Homeland Security Presidential Directive (HSPD)
  • HSPD – 7: Critical Infrastructure Identification, Prioritization, and Protection




                                                          OIG Audit of DOL’s Sensitive IT Assets
                                            38                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              39                    Report No. 23-11-001-07-001
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix C
Acronyms and Abbreviations


AMS           Asset Management System

APO           Accountable Property Officer

BLS           Bureau of Labor Statistics

BOC           Business Operation Center

CAG           Consensus Audit Guidelines

CIO           Chief Information Officer

CSH           Computer Security Handbook

CPU           Central Processing Unit

CRC           Civil Rights Center

DLMS          Department of Labor Manual Series

DOL           Department of Labor

DOLCSIRC      DOL Computer Security Incident Response Capability

EBSA          Employee Benefits Security Administration

EIT           Electronic and Information Technology

EPMS          E-Property Management System

EPS           E-Procurement System

ESA           Employment Standards Administration

ETA           Employment and Training Administration

FIPS          Federal Information Processing Standards

FISMA         Federal Information Security Management Act

GAGAS         Generally Accepted Government Auditing Standards



                                                         OIG Audit of DOL’s Sensitive IT Assets
                                           40                    Report No. 23-11-001-07-001
                                    U.S. Department of Labor – Office of Inspector General



HSPD      Department of Homeland Security Presidential Directive

ISO       Information Security Officer

IT        Information Technology

JC        Office of Job Corps

JFMIP     Joint Financial Management Improvement Program Inventory and
          Supplies Management

MIS       Management of Information Systems

MSHA      Mine Safety and Health Administration

NIST      National Institute of Standards and Technology

OAS       Office of Administrative Services

OASAM     Office of the Assistant Secretary for Administration and Management

OCIO      Office of the Chief Information Officer

OFCCP     Office of Federal Contract Compliance Programs

OIG       Office of Inspector General

OLMS      Office of Labor-Management Standards

OMB       Office of Management and Budget

OSEC      Office of the Secretary

OSHA      Occupational Safety and Health Administration

OWCP      Office of Workers’ Compensation Programs

PDA       Personal Digital Assistants

PII       Personally Identifiable Information

SP        Special Publication

US-CERT   United States – Computer Emergency Readiness Team

WHD       Wage and Hour Division

                                                    OIG Audit of DOL’s Sensitive IT Assets
                                     41                     Report No. 23-11-001-07-001
                                U.S. Department of Labor – Office of Inspector General



                                                                      Appendix D
OCIO Response to Draft Report




                                               OIG Audit of DOL’s Sensitive IT Assets
                                 42                    Report No. 23-11-001-07-001
U.S. Department of Labor – Office of Inspector General




               OIG Audit of DOL’s Sensitive IT Assets
 43                    Report No. 23-11-001-07-001
U.S. Department of Labor – Office of Inspector General




               OIG Audit of DOL’s Sensitive IT Assets
 44                    Report No. 23-11-001-07-001
U.S. Department of Labor – Office of Inspector General




               OIG Audit of DOL’s Sensitive IT Assets
 45                    Report No. 23-11-001-07-001
                                            U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix E
Acknowledgments

Key contributors to this report included Paul Kuscher, Paul Vaclavik, Tia Salmon,
Carmen Wilson, Brian Devaney, Mitchell Goldberg, Lewis Leung, Victor Chan, and
Benjamin Brady.

Additional support for this report was provided by Christine Allen, Ajit Buttar, Kevin
Dolloson, Johanna Nathanson, and Steve Witherspoon.




                                                           OIG Audit of DOL’s Sensitive IT Assets
                                             46                    Report No. 23-11-001-07-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            OIG Audit of DOL’s Sensitive IT Assets
              47                    Report No. 23-11-001-07-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
